V

APPENDIX

OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201
JUNE 24, 2021

RE: SUPREME COURT CASE NO. CR-20-491
CHRISTOPHER W. TERRELL V. STATE OF ARKANSAS

THE ARKANSAS SUPREME COURT ISSUED THE FOLLOWING ORDER TODAY IN THE
ABOVE STYLED CASE:
“APPELLANT’S PRO SE PETITION FOR REVIEW IS DENIED.’SINCERELY,

CC: CHRISTOPHER W. TERRELL
JOSEPH KARL LUEBKE, ASSISTANT ATTORNEY GENERAL
POINSETT COUNTY CIRCUIT COURT
{CASE NO. 56CR-15-21)

APPENDIX 2

MANDATE
AFFIRMED
PROCEEDINGS OF APRIL 21, 2021
COURT OF APPEALS CASE NO. CR-20-491
CHRISTOPHER W. TERRELL

APPELLANT

V. APPEAL FROM POINSETT COUNTY CIRCUIT COURT
(56CR-15-21)
STATE OF ARKANSAS

APPELLEE

THIS APPEAL WAS SUBMITTED TO THE ARKANSAS COURT OF APPEALS ON
THE RECORD OF THE POINSETT COUNTY CIRCUIT COURT AND BRIEFS OF THE
RESPECTIVE PARTIES. AFTER DUE CONSIDERATION, IT IS THE DECISION OF THE
COURT THAT THE JUDGMENT OF THE CIRCUIT COURT IS AFFIRMED.
BARRETT, J., AUTHORED THE OPINION OF THE COURT, IN WHICH GLADWIN
AND HIXSON, JJ., AGREE.
IT IS ALSO ORDERED THAT, IF THE APPELLANT IS FREE PURSUANT TO AN
APPEAL BOND, THE APPELLANT SHALL IMMEDIATELY SURRENDER TO THE
SHERIFF OF POINSETT COUNTY. IF THE SURRENDER IS NOT IMMEDIATE,
APPELLANT’S BOND IS DECLARED FORFEITED AND A WARRANT SHALL ISSUE
FOR APPELLANT’S ARREST.
IN TESTIMONY, THAT THE ABOVE IS A TRUE AND CORRECT COPY OF THE
JUDGMENT OF THE ARKANSAS COURT OF APPEALS, I, STACEY PECTOL,
CLERK, SET MY HAND AND AFFIX MY OFFICIAL SEAL. ON THIS 24TH DAY
OF JUNE, 2021.

STACEY (PECTOL, CLERK

APPENDIX 1

4
2021 Ark. App. 179
NOTICE: THIS DECISION WILL NOT APPEAR IN THE SOUTHWESTERN REPORTER.
SEE REVISED SUPREME COURT RULE 5-2 FOR THE PRECEDENTIAL VALUE OF
OPINIONS.
Court of Appeals of Arkansas,
DIVISION IV.
Christopher W. TERRELL, Appellant
v.

STATE of Arkansas, Appellee
No. CR-20-491
Opinion Delivered: April 21, 2021
APPEAL FROM THE POINSETT COUNTY CIRCUIT COURT [NO. 56CR-15-21],
HONORABLE KEITH L. CHRESTMAN, JUDGE
Attorneys and Law Firms

Christopher Terrell, pro se appellant.
Leslie Rutledge, Att'y Gen., by: Joseph Karl Luebke, Ass't Att'y Gen., for appellee.
Opinion
STEPHANIE POTTER BARRETT, Judge
*1 Christopher Terrell appeals the Poinsett County Circuit Court's order denying his Rule 37
petition for postconviction relief. Ark. R. Crim. P. 37.1 (2017). In his petition, Terrell argued his
trial counsel was ineffective for three reasons: (1) failure to move for suppression of physical
evidence on the basis of illegal entry into Terrell's residence; (2) failure to timely appeal his
motion for new trial due to juror misconduct; and (3) failure to move for suppression of cell­
phone site-location information. The circuit court denied Terrell's petition without a hearing. We
affirm.

APPENDIX 8

■■i

Terrell was convicted of first-degree murder in the November 29, 2014 death of James Hunt and
sentenced to twenty-three years in prison. His conviction was affirmed by this court on direct
appeal. Terrell v. State, 2019 Ark. App. 433, 587 S.W.3d-594.
*2 I. Standard of Review
We do not reverse the denial of postconviction relief unless the circuit court's findings are clearly
erroneous. Slater v. State, 2017 Ark. App. 499, 533 S.W.3d 84. A finding is clearly erroneous
when, although there is evidence to support it, after reviewing the entire evidence, we are left
with the definite and firm conviction that a mistake has been committed. Id. In making a
determination of a claim of ineffective assistance of counsel, this court considers the totality of
the evidence. Id.
In Kauffeld v. State, 2019 Ark. App. 29, at 2-3, 569 S.W.3d 348, 351, this court set forth the
framework for analyzing an ineffective-assistance-of-counsel claim:
The benchmark forjudging a claim of ineffective assistance of counsel must be whether
counsel's conduct so undermined the proper functioning of the adversarial process that the trial
cannot be relied on as having produced a just result. Strickland v. Washington, 466 U.S. 668
(1984). Pursuant to Strickland, we assess the effectiveness of counsel under a two-prong
standard. First, a petitioner raising a claim of ineffective assistance of counsel must show that his
counsel's performance fell below an objective standard of reasonableness. Mancia v. State, 2015
Ark. 115,459 S.W.3d 259. A court must indulge in a strong presumption that counsel's conduct
falls within the wide range of reasonable professional assistance. Osbum v. State, 2018 Ark.
App. 97, 538 S.W.3d 258. Second, the petitioner must show that counsel's deficient performance
so prejudiced petitioner's defense that he was deprived of a fair trial. Id. The petitioner must
show there is a reasonable probability that, but for counsel's errors, the fact-finder would have

APPENDIX 9

had a reasonable doubt respecting guilt, i.e., the decision reached would have been different
absent the errors. Id. A reasonable probability is a probability sufficient to undermine confidence
in the outcome of the trial. Id. Unless a petitioner makes both showings, it cannot be said that the
conviction resulted from a breakdown in the adversarial process that renders the result unreliable.
Id. Additionally, conclusory statements that counsel was ineffective cannot be the basis for
postconviction relief. Id.
*3 II. Suppression Issues
On appeal, Terrell addresses his two suppression arguments—failure of his trial counsel to move
to suppress physical evidence found at his residence and his cell-phone site-location information
—together.
A. Physical Evidence
Terrell's first claim that he received ineffective assistance of counsel concerns counsel's failure to
file a motion to suppress physical evidence. 1 The circuit court found two reasons to deny
Terrell's Rule 37 petition on this point—(1) Terrell was on parole at the time of Hunt's murder,
and as a parolee, he was subject to warrantless searches under Arkansas Code Annotated § 16-93106,2 and (2) Terrell could not demonstrate he was prejudiced by the failure to seek suppression
of the physical evidence because this court's holding affirming the sufficiency of the evidence to
support his conviction did not turn on evidence Terrell believed should have been suppressed.
The facts surrounding Hunt's murder were set forth in detail in Terrell's 2019 direct appeal to this
court. Terrell and Hunt both had a sexual relationship with Betty Grant. When Hunt's body,
which had sustained a shotgun wound to the head, was discovered by *4 law enforcement
beneath his burned truck on a levee in Marked Tree, Terrell and Grant became persons of interest
after Hunt's wife told law enforcement that they had been with her husband prior to his death,

APPENDIX 10

and she had received a call from Terrell on November 27, 2014, asking if she knew where Grant
was. Grant initially told the police that she had accidentally killed Hunt, but she later recanted
and stated that Terrell had killed Hunt. Grant testified that on November 29, she saw Terrell
holding something wrapped in a blue shirt; Terrell told her to get in her car; she and Terrell drove
to the levee; Terrell called Hunt to bring gas to them at the levee; Grant fell asleep but awoke to a
loud noise and saw Hunt bleeding from his face; and she then watched Terrell drag Hunt to the
bottom of the levee, drive Hunt's truck to the bottom of the levee, pour gas on the truck, and set it
on fire.
Joseph Wilson testified that Terrell had asked him on November 29 if he could get Terrell a gun,
and he told Wilson that he was going to “take care of some business.” Wilson later saw Terrell
sitting in Grant's car at the levee.
Lloyd Watson3 testified that he heard a vehicle speed by his house on the night of November 29
and park next door at Terrell's brother's house. The next day, Watson observed Terrell remove
items from that vehicle, including a tire, gas cans, and clothes, which Watson recognized as
belonging to Grant. Watson also saw Terrell remove the door panels from the vehicle. Terrell
placed all the items he removed from the vehicle in a detached garage on his brother's property.
After obtaining a search warrant, police seized door panels, *5 a pair ofjeans, and gas cans from
the detached garage. A pair of boots was also taken from inside the residence. Although blood
was found on the boots and jeans, there was insufficient DNAto determine to whom the blood
belonged.
The State argues, and we agree, that even if the above items should have been suppressed, Terrell
cannot show prejudice by the failure to file a motion to suppress because there was
overwhelming evidence from witness testimony to support his conviction without the seized

APPENDIX 11

items. This court, in recognizing that the jury was entitled to believe Grant's testimony that
Terrell was the person who killed Hunt and in holding there was sufficient evidence to support
Terrell's conviction, stated,
Although Grant did not see the shot being fired, she heard it and immediately thereafter saw Hunt
dying from a gunshot wound to his face. She then saw Terrell drag Hunt's body, position Hunt's
truck over the body, and light the tmck on fire. Earlier that day, Terrell had asked Joseph Wilson
for help acquiring a gun that he needed to “take care of some business.” Wilson saw Terrell at the
levee the afternoon of the murder. After the murder, Lloyd Watson saw Terrell disposing of items
from Grant's car. A jury may properly consider an attempt to cover up one's connection to a crime
as proof of a purposeful mental state. Steams [v. State, 2017 Ark. App. 472, 529 S.W.3d 654],
Viewing the evidence in the light most favorable to the State, we hold that substantial evidence
supports the conviction.
Terrell, 2019 Ark. App. 433, at 7, 587 S.W.3d at 600. Grant's eyewitness testimony identified
Terrell as the person who murdered Hunt. None of the items Terrell claims were improperly
seized provided any evidence linking Terrell to the murder since there was insufficient DNA to
determine whose blood was on the boots and jeans. The circuit court was not clearly erroneous in
denying Terrell's Rule 37 petition on this point.
B. Cell-Phone Site-Location Information
*6 Terrell argues in his Rule 37 petition that his counsel was ineffective for failing to move for
suppression of his cell-phone site-location information because it was obtained without a
warrant. He bases this contention on the United States Supreme Court's decision in Carpenter v.
United States, 138 S. Ct. 2206 (2018), which held that the government's seizure of cell-site
location data is a Fourth Amendment search that requires a warrant. However, as Terrell admits,

APPENDIX 12

4

Carpenter was not decided until June 22, 2018, more than two months after he was convicted and
sentenced on April 12, 2018. In Toledo v. United States, 581 F.3d 678, 681 (2009), the Eighth
Circuit Court of Appeals held:
We do not evaluate counsel's performance using “the clarity of hindsight, but in light of the facts
and circumstances at the time of trial.” Carter v. Hopkins, 92 F.3d 666, 669 (8th Cir. 1996)
(citation omitted). Counsel is not accountable for unknown future changes in the law. See Home
v. Trickey, 895 F.2d 497, 500 (8th Cir. 1990) (not ineffective assistance of counsel to fail to
foresee “a significant change in existing law.”); Parker v. Bowersox, 188 F.3d 923, 929 (8th Cir.
1999) (not ineffective assistance of counsel to “fail [ ] to anticipate a change in the law”).
Failure to move to suppress cell-site location data at the time of trial cannot be ineffective
assistance of counsel based on the decision in Carpenter because it was not the law at the time of
Terrell's conviction. We therefore affirm the circuit court's denial of Terrell's Rule 37 petition on
this point.
III. Motion for New Trial
In Terrell's remaining point on appeal, he argues that the circuit court erred in denying his claim
for ineffective assistance of counsel because the denial of his motion for a new trial was not
preserved for appellate review. To prevail on a claim of ineffective assistance of counsel on the
basis of counsel's failure to preserve an issue for appeal, a petitioner must *7 show that had the
issue been preserved, the appellate court would have reached a different decision. Campbell v.
State, 2020 Ark. App. 480, 611 S.W.3d 230. Terrell cannot show that had his motion for new
trial been preserved for appeal, it would have been granted; therefore, we affirm on this point.
Terrell's sentencing order was filed of record on April 12, 2018. He timely filed a motion for new
trial on May 9, 2018, alleging juror misconduct. He filed a notice of appeal from the sentencing

APPENDIX 13

«

order on May 10. The circuit court held a hearing on Terrell's motion for a new trial on July 23
and denied the motion. Terrell then filed an amended notice of appeal on July 26 appealing both
the April 12 sentencing order and the July 23 denial of his motion for new trial. This court
declined to address Terrell's argument on direct appeal regarding his motion for new trial holding
that he had failed to timely appeal that issue because pursuant to Arkansas Rule of Criminal
Procedure 33.3(c), the motion was deemed denied on June 8 (the thirtieth day after the date it
was filed), the circuit court had no jurisdiction to act on the motion on July 23, and Terrell had
failed to timely amend his notice of appeal to include the “deemed denied” motion for new trial.
Terrell, 2019 Ark. App. 433, at 11-12, 587 S.W.3d at 602.
Terrell argues on appeal he received ineffective assistance because “[tjrial counsel failed to file
an amended notice of appeal within 30 days of the deemed denial of Terrell's motion for new
trial, thus precluding direct review. This error was prejudicial because Terrell's argument would
have been meritorious on direct appeal.” In support of this assertion, Terrell states that he “filed
an affidavit executed by juror Nicole Elsey stating that *8 ‘the jury was unable to determine who
specifically shot and killed James Hunt, but that Christopher Terrell was convicted because he
was found to have been involved in the commission of the crime. 5 55
The party alleging juror misconduct “bears the burden of proving both the misconduct and that a
reasonable possibility of prejudice resulted from it; we will not presume prejudice in such
situations.” Campbell v. State, 2014 Ark. App. 171, at 8,432 S.W.3d 673,678. Elsey's affidavit
states, “I Nicole Elsey, served as a juror in the trial of Christopher Terrell from April 10-12,
2018.1 hereby state that the jury was unable to determine who specifically shot and killed James
Hunt, but that Christopher Terrell was convicted because he was found to have been involved in
the commission of the crime.”

APPENDIX 14

'i

In denying this point in Terrell's Rule 37 petition, the circuit court found that even if a timely
appeal had been made from the denial of the motion for new trial, the motion would have been
denied. Rule 606(b) of the Arkansas Rules of Evidence provides,
(b) Inquiry Into Validity of Verdict or Indictment. Upon an inquiry into the validity of a verdict or
indictment, a juror may not testify as to any matter or statement occurring during the course of
the jury's deliberations or to the effect of anything upon his or any other juror's mind or emotions
as influencing him to assent to or dissent from the verdict or indictment or concerning his mental
processes in connection therewith, nor may his affidavit or evidence of any statement by him
concerning a matter about which he would be precluded from testifying be received, but a juror
may testify on the questions whether extraneous prejudicial information was improperly brought
to the jury's attention or whether any outside influence was improperly brought to bear upon any
juror.
The circuit court found that nothing in the affidavit triggered a Rule 606 exception because
Terrell did not allege improper external influence, and the information contained in the *9
affidavit was not extraneous prejudicial information but rather a mere statement about an
inability to reach a particular conclusion.
Terrell argues that he was not charged as an accomplice, and the jury was not instructed as to
accomplice liability, but that in light of Elsey's affidavit, it was clear that the jury discussed
accomplice liability and even though, according to Elsey, the jury was not able to determine if
Terrell or Grant shot Hunt, Terrell was convicted because the jury believed Terrell was involved
in the commission of the crime. In Campbell, supra, this court affirmed the circuit court's refusal
to allow jurors to testify about what an allegedly improperly introduced jury instruction stated
and whether the jurors discussed the appellant's intent to commit the crime:

APPENDIX 15

\

Rule 606(b) states plainly that a juror may not testify as to the effect of anything upon his mind
as influencing him to assent to the verdict. See Veasey v, State, 276 Ark. 457, 637 S.W.2d 545
(1982). Certainly, a juror's understanding of the jury instructions and its effect on her deliberation
fall within this very prohibition. See also Hall v. Levine, 104 P.3d 222 (Colo. 2005) (observing
that Colorado Rule of Evidence 606(b), which language mirrors that of Ark. R. Evid. 606(b),
applied even if the affidavits showed that the jury misunderstood the law or facts, failed to follow
instructions, or applied the wrong legal standard); 75B Am. Jur. 2d Trial § 1625 (2012) (“The
rule applies even on grounds such as mistake, misunderstanding of the law or facts, failure to
follow instructions, lack of unanimity, or application of the wrong legal standard.”); 66 C.J.S.
New Trial § 235 (2012) (“[Ojrdinarily, a juror's claim that he was confused over the law or
evidence and therefore participated in the verdict on an incorrect premise is a matter that inheres
in or is intrinsic to the deliberative process and cannot be used to impeach the verdict.”).
Campbell, 2014 Ark. App. 171, at 7-8,432 S.W.3d at 678 (quoting Arnold v. State, 2012 Ark.
400, at 4-5 (emphasis in the original)). The purpose of Rule 606(b) “is to balance the freedom of
jury deliberations with the ability to correct an irregularity in those *10 deliberations.” Miles v.
State, 350 Ark. 243, 251, 85 S.W.3d 907, 912 (2002) (citation omitted). The information Terrell
wanted to adduce at the hearing on his motion for new trial was exactly the type of testimony
prohibited by Rule 606(b).
Terrell further argues on appeal that the jury deprived him of his due-process right to a fair trial
by determining his guilt based on the theory of accomplice liability. This argument was not made
to the circuit court. Nevertheless, the supreme court held in Miles, supra, that Rule 606(b) is not
unconstitutional and serves the important functions of maintaining the privacy ofjury
deliberations and protecting the finality ofjudgments.

APPENDIX 16

I
Affirmed.
Gladwin and Hixson, JJ., agree.
All Citations

Not Reported in S.W. Rptr., 2021 Ark. App. 179, 2021 WL 1558335
Footnotes
1
We note that trial counsel filed a motion to suppress physical evidence on March 10,2017, but
this motion was withdrawn by counsel at a pretrial motion hearing.
2

Terrell argues that this statute was not in effect in 2014 when he was a parolee and his residence
was searched. The State concedes that the statute, which was not enacted until 2015, was not in
effect at the time in question and therefore has no applicability to this case. However, we will
affirm the circuit court's decision if it reached the right result, albeit for the wrong reason.
Colston v. Kelley, 2019 Ark. 54, 568 S.W.3d 265.
3

Watson was deemed an unavailable witness, but his prior testimony was read into the record.

APPENDIX 17

IN THE ARKANSAS SUPREME COURT

CHRISTOPHER TERRELL
VS.

APPELLANT
CASE NO. CR-20-491

STATE OF ARKANSAS

APPELLEE

PETITION FOR REVIEW
COMES NOW the Appellant Christopher Terrell, Pro Se, and for his petition for
Review, states:

1. On April 21, 2021, a panel of the Court of Appeals affirmed the denial of his
Rule 37 petition by the trial court. The panels decision erred with respect to
several of the grounds listed in Sup. Ct. Rule l-2(b).
2. The panel erred with respect to Sup. Ct. Rule l-2(b)(l). Terrell made clear in
his informational statement and appeal that there were extraordinary issues
involving an issue of first impression that needed to be determined by the
Arkansas Supreme Court. No where in this state's case law has a jury ever
convicted a defendant as an accomplice or accessory when the defendant was
not charged as such and the jury was not instructed on those theories of law.
(R. 1133; 1136-38). This is why Terrell had to cite other State case law on this
issue in his appeal. (See e.g., People v. Milsap, 724 N.E.2d 942 (2000);
People v. Morris, 401 N.E.2d 284, (III. App. Ct. 1980); State v. Ransom, 785
P.2d 469 (1990); State v. Williams, 759 N.W.2d 438 (2009). Nor, is there
anywhere in this state's case law an example of such egregious jury
1
APPENDIX 3

misconduct as convicting a defendant of Purposeful First Degree Murder when
jury misconduct evidence presented clearly shows that several members of
the jury were unable to determine that the defendant actually committed the
murder. (Add.2;R.1225;R183-85;Add.3).
3. The panel erred with respect to Sup. Ct. Rule l-2(b)(2). The panel uses
Campbell v. State, 2014 Ark. App. 171, 432 S.W.3d 673, to hold that Terrell
is barred by Rule 606(b) of his inquiry into the jury misconduct issue of the
jury convicting outside the instructions given to them which is clearly an
irregularity in the deliberations. Case law in Arkansas makes clear that rule
obviously has some further purpose, else the language used in the rule would
have been omitted. The other language of the rule indicates it is proper to
questions jurors about matters being considered in deliberations which were
improper. Case law also indicates the rule can be used to correct irregularities
in those deliberations. (See e.g., Veasey v. State, 276 Ark. 457, 637 S.W.2d
545, concurring opinion; Watkins v. Taylor Seed Farms, Inc., 295 Ark. 291,
748 S.W.2d 143; Miles v. State, 350 Ark. 243, 251, 85 S.W.3d 907, 912
(2002). Certainly, the jury considered matters not presented at trial to
convict a defendant of shooting and killing someone, while possessing the
inability to reach a particular conclusion as to who actually shot and killed the
victim, constitutes, an act or practice that varies from the normal conduct of
an action. (See Black's Law Dictionary, 11th Edition; Irregularity).
4. The panel erred with respect to Sup. Ct. Rule l-2(b)(3). Terrell explained in
his appeal that Due Process means a jury capable and willing to uphold their
constitutional sworn duty to apply the law as instructed to the facts of the
2
APPENDIX 4

case. "Impartiality is presumed so long as the jurors can conscientiously and
properly carry out their sworn duty to apply the law to the facts of the case."
United States v. Wright, 340 F.3d 724, 733 (8th Cir. 2003). U.S. Const.
Amend. VI, guarantees criminal defendants, "the right to a

trial, by an

impartial jury." Certainly, a jury voting guilty on First Degree Murder while
being "unable to determine who shot and killed" the victim states in the
affidavit or possessing the inability "to reach a particular conclusion" on this
issue as acknowledged by the trial court and the panel in its decision,
constitutes a degree of partiality that stands in direct conflict with the due
process of a criminal defendants substantial rights afforded to him at trial.
5. The panel erred with respect tp Sup. Ct. Rule l-2(b)(5). The panel states that
Terrell did not make an argument to the circuit court about the jury depriving
him of his due process right to a fair trial. However, record evidence shows
that Terrell did state in his motion for new trial, the language of Ark. Code
Ann § 16-89-130(c)(7). (R.184). At the hearing on the motion Terrell stated
about "substantial" right being prejudiced and unable to receive a fair and
lawful trial." (R.1235). The circuit court ruled upon the motion and the
affidavit provided with the motion. (R.1238). The language of the affidavit
clearly reveals the violation of this due-process right. Ineffectiveness of trial
counsel is not preserving this issue was one of the points set out in the Rule
37 petition and the appeal. It is important to remember the underlying
rationale concerning issues being raised for the first time on appeal. "Issues
raised for the first time on appeal will not be considered because the circuit
court never had an opportunity to make a ruling." Johnson v. State, 2009
3
APPENDIX 5

Ark. 460, 344 3d 74 (per curiam), (citing Green v. State, 362 Ark. 459, 209
S.W.3d 339 (2005). Certainly, the test for preservation cannot hinge solely on
whether the litigant used the correct "magic words" in citing to a violation
that prejudiced his rights and that "while consideration of extraneous
prejudicial information and improper outside influence affecting deliberations
are the most common types of jury misconduct, they are not exclusive types
of misconduct that warrant relief." State v. Cherry, 341 Ark. 924, 20 S.W.3d
354. Clearly the panel erred with the law of Ark. Code Ann § 16-89-130(c)
(7), being that Terrell was charged with shooting and killing James Hunt and
the affidavit clearly states under oath, "the jury was unable to determine who
specifically shot and killed James Hunt." (Add.2;R.1225)
6. The panel erred with respect to Sup. Ct. Rule l-2(b)(4). Terrell explained in
his appeal, which is public record, the trial courts instructions to the jury
concerning reasonable doubt on State's burden of proof on each element of
the offense charged and on his charged of purposeful First Degree Murder.
The panel's decision, also public record, sets out the details of the jurors
affidavit and the trial courts ruling about the affidavit being an inability to
reach a particular conclusion about the facts in issue of the case. Certainly,
the citizens of Arkansas and their substantial public interests in the
administration of the criminal law in this state, would not want to be adjudged
guilty of First Degree Murder when the jury was "unable to determine" that
they did in fact commit the murder. Especially given the fact that the trial
court even conceded that the jury did possess, "an inability to reach this
particular conclusion." This is exactly why the United States Supreme Court
4
APPENDIX 6

'3

ruled 50 years ago, "lest there remain any doubt about the constitutional
stature of the reasonable-doubt standard, we explicitly hold that the Due
Process Clause protects the accused against conviction except upon proof
beyond a reasonable doubt of every fact necessary to constitute the crim with
which he is charged." In re Winship, 397 U.S. 358, at 364. Society has a
substantial public interest in this fundamental right that dates from the
common law. Jury misconduct evidence of Terrell's trial clearly reveals that
the "every fact necessary to constitute the crime charged" requirement of the
law was not reached concerning this fundamental substantial right. This right
is also indispensable to command the respect and confidence of the
community in the applications of the criminal law. The citizens of this State
going about their ordinary affairs need to have confidence that their
government cannot adjudge them guilty of First Degree Murder without
convincing a proper fact finder that they did in fact commit murder.
7. Terrell respectfully requests this Court grant his Petition for Review so that the
Court may correct the panel's errors.
WHEREFORE, Appellant prays that review be granted and the Court of
Appeals reversed.
Respectfully Submitted

Christopher Terrell, Pro Se
P.O. Box 1630
Malvern, AR, 72104

5
APPENDIX 7

I

IN THE CIRCUIT COURT OF POINSETT C0»*MKrclK
Fill-fftWtmiFF

STATE OF ARKANSAS
Case No. 56CR-15-21

vs.

AM

W 2$ 2020

CHRISTOPHER TERRELL
ORDER DENYING RULE 37 PETITION
A jury found Christopher Terrell guilty of James Hunt s 2015
murder. Terrell appealed, but the Terrell v. State1 court affirmed. Under Ark.
R. Crim. P. 37, Terrell now challenges his conviction, making multiple
ineffective-assistance-of-counsel claims. First, his attorney didn t move to
suppress illegally seized evidence and cell-site location information . But
Terrell was a parolee and had a diminished privacy expectation, so there
was no improper search and seizure. And second, his attorney didn t
appeal the circuit court's denial of his jury-misconduct new trial motion.
But Ark. R. Evid. 606 prevents the inquiry Terrell seeks, so he suffered no
prejudice. The Court, therefore, denies Terrell’s Rule 37 Petition.
i

J

2019 Ark. App. 433.
-page 1 of 10 pages-

APPENDIX 18

\

Under Rule 37, a defendant can collaterally challenge their
conviction. If the petition, files, and case records show—conclusively—that
the petitioner is entitled to no relief, the trial court can summarily deny.
Ark. R. Crim. P. 37.3(a). The trial court, however, must make written
findings to that effect, specifying the files or records upon which it relied
to sustain its finding. Ibid.
Terrell makes three ineffective-assistance-of-counsel claims. An
ineffective-assistance claim must satisfy two elements. Strickland v.
I

Washington, 466 U.S. 668, 687 (1984). First, counsel's performance was
deficient, depriving the claimant of the guaranteed Sixth Amendment's
counsel right. Ibid. And second, because of counsel's deficient
performance, the defense was prejudiced. Ibid.
The Court reviewed Terrell's Rule 37 Petition, the 1,243-page appeal
record (CR-18-921), and the Terrell court's decision. A review of these
items shows—conclusively—that Terrell is entitled to no relief. And in
reaching this no-relief conclusion, the Court makes four specific factual

J

-page 2 of 10 pages-

APPENDIX 19

)

findings:
• Finding N° 1: At the time of Hunt’s murder, Terrell was on parole. R.
213, 222, 234, 236, 257.
• Finding 3Vs 2: Terrell’s Rule 37 Petition fails to state the illegally seized
items. Rule 37 Pet. at 1-3. But in Terrell’s pro se Motion to Suppress
(filed 29 September 2016), he listed some seized items, including boots,
women’s pants, car door panels, mobile phone, wallet, and phone
records:
8.

Boots allegedly belonging to [Terrell], and a pair of
womens blue-jeans were found in the residence; two car door panels
were found in the detached garage behind the residence. The boots,
womens blue-jeans, and the two car door panels; are requested to be
and should be suppressed as to the cause of the [search] warrant
that is the fruit of the poisonous tree, due to [Terrell’s] illegal arrest
and seizure. • • •
10. The 1996 Mercury four door car belonging to Betty Grant
that was illegally seized from [Terrell’s] residence, along with the
cell-phone and bill-fold that was seized from inside the 1996
Mercury; are requested to be and should be suppressed as to the
cause of the [search] warrant that is the fruit of the poisonous tree,
due to [Terrell's] illegal arrest and seizure.

)

-page 3 of 10 pages-

APPENDIX 20

1

11. Any and all phone records belonging to (870)-882~3494
which was illegally seized, is requested to be and should be
suppressed as to the cause of the fruit of the poisonous tree, due to
[Terrell’s] illegal arrest and seizure.
R. 64-65 (internal citations omitted).
• Finding JY° 3: The Terrell court held that the evidence was sufficient to
support the jury's conviction. And in reaching this holding, the Terrell
court relied on neither evidence seized from Terrell’s residence nor his
cell-site location information. The Terrell court instead concluded that
Betty Grant, Joseph Wilson, and Lloyd Watson’s combined testimonies
were sufficient evidence to prove Terrell’s guilt:
Terrell was charged with causing the death of another person
"with a purpose of causing the death of another person.” A person
acts purposely with respect to his or her conduct or a result of his or
her conduct when it is the person’s conscious object to engage in
conduct of that nature or to cause the result. A criminal defendant’s
intent or state of mind is seldom capable of proof by direct evidence
and must usually be inferred from the circumstances of the crime. It
is axiomatic that one is presumed to intend the natural and probable
consequences of his or her actions. Furthermore, the intent
necessary for first-degree murder may be inferred from the type of
weapon used, the manner of its use, and the nature, extent, and
location of the wounds.
-page 4 of 10 pages-

APPENDIX 21

Terrell relies on Grant’s changing statements to police, but this
court does not weigh the evidence presented at trial or weigh the
credibility of witnesses, as these are matters to be resolved by the
finder of fact. The trier of fact is free to believe all or part of any
witness’s testimony and may resolve questions of conflicting
testimony and inconsistent evidence. The jury credited Grant’s
, testimony, as it was entitled to do, and we hold that her testimony
along with the testimony of other witnesses constitutes substantial
evidence to support Terrell's conviction.
Although Grant did not see the shot being fired, she heard it
and immediately thereafter saw Hunt dying from a gunshot wound
to his face. She then saw Terrell drag Hunt’s body, position Hunt’s
truck over the body, and light the truck on fire. Earlier that day,
Terrell had asked Joseph Wilson for help acquiring a gun that he
needed to "take care of some business.” Wilson saw Terrell at the
levee the afternoon of the murder. After the murder, Lloyd Watson
saw Terrell disposing of items from Grant's car. A jury may properly
consider an attempt to cover up one’s connection to a crime as proof
of a purposeful mental state. Viewing the evidence in the light most
favorable to the State, we hold that substantial evidence supports the
conviction. • • •
2019 Ark. App. 433, at 6-7 (internal citations omitted).
• Finding JV° 4: On 23 July 2018, someone filed in the above-styled case an
affidavit, stating:

J

-page 5 of 10 pages-

APPENDIX 22

...^

AFFIDAVIT
I, [juror’s name], served as a juror in the trial of [Terrell] from
April 10-12, 2018.1 hereby state that the jury was unable to
determine who specifically shot and killed [Hunt], but that
[Terrell] was convicted because he was found to have been involved
in the commission of the crime.
R. 1225.
Based on these four findings, the Court makes a no-relief
determination.
Points One (Failure to suppress illegally seized evidence) and Three

)

(Failure to suppress cell-site information): Under Ark. Code Ann. §
16-93-106, Terrell was—as a parolee—subject to warrantless searches. So
items seized weren’t obtained illegally. Cherry v. State, 302 Ark. 462,
466-68, 791 S.W.2d 354, 356-57 (1990). Trial counsel’s failure to seek the
suppression of items seized and cell-site information thus wasn’t deficient.
And since the Terrell court’s sufficiency holding didn't turn on evidence
that Terrell believes should’ve been suppressed, he can’t say he was
prejudiced. So under Strickland’s two-pronged test, neither Terrell’s first

)

-page 6 of 10 pages-

APPENDIX 23

nor third points warrants Rule 37 relief.
Concerning Terrell's cell-site argument, his parolee status is
determinative. He argues that, given the Carpenter v. United States2 Court’s
decision, his trial counsel was ineffective. Rule 37 Pet. at 9-10. True, the
Carpenter Court held that the Fourth Amendment protects a person’s cellsite information. 138 S. Ct. at 2217-19. But Timothy Carpenter wasn’t a
parolee. Nor was he someone who had, for any reason, a lowered privacy
expectation. He lived in an unconditional state of liberty, enjoying all
)

constitutional protections. But Terrell was different. As a parolee, he lived
in a conditional state of liberty. And one condition was his constant
exposure to possible warrantless searches. So Carpenter is distinguishable
and provides Terrell no relief.
Point Two (Failure to appeal new trial motion): About three months
after the Sentencing Order was filed, someone filed a juror’s affidavit. R.
180-81, 1225. In this affidavit, the juror simply claimed that the jury was
2 138 S. Ct. 2206 (2018).

)

-page 7 of 10 pages-

APPENDIX 24

■

A

unable to determine Hunt's killer. Based on this affidavit, Terrell moved for
a new trial, alleging jury misconduct. R. 183-86. The circuit court
(Fogleman, J.) found that the affidavit didn't contain the type of
information that Rule 606 contemplates. R. 1237-40. So the circuit judge
denied Terrell’s new trial motion. Ibid. But because the new trial motion
had already been deemed-denied, the circuit court, at the time of its ruling,
no longer had jurisdiction. 2019 Ark. App. 433, at 11-12. Still, the circuit
court's legal conclusion was right.
)

Rule 606 generally bars a juror's testimony about a verdict’s validity.
There s, however, an exception. If the juror's testimony concerns
extraneous prejudicial information or outside influence, they can testify:
Upon an inquiry into the validity of a verdict or indictment, a juror
may not testify as to any matter or statement occurring during the
course of the jury's deliberations or to the effect of anything upon
his or any other juror's mind or emotions as influencing him to
assent to or dissent from the verdict or indictment or concerning his
mental processes in connection therewith, nor may his affidavit or
evidence of any statement by him concerning a matter about which
he would be precluded from testifying be received, but a juror may
testify on the questions whether extraneous prejudicial information
-page 8 of 10 pages-

APPENDIX 25

"I

was improperly brought to the jury’s attention or whether any
outside influence was improperly brought to bear upon any juror.
Ark. R. Evid. 606(b).
Here nothing in the affidavit triggered a Rule 606 exception. Terrell
doesn’t allege improper external influence, so the outside-influence
exception didn’t apply. And extraneous prejudicial information isn’t a mere
statement about an inability to reach a particular conclusion. It instead is
outside information being brought to the attention of the jurors

)

concerning some issue or matter in the action pending before the court.”
Watkins v. Taylor Seed Farms, Inc., 295 Ark. 291, 293, 748 S.W.2d 143, 144
(1988). Since the affidavit concerns neither outside influence nor outside
information, Rule 606(b)'s exceptions didn’t apply. Any deficiency in
Terrell s trial counsel thus wasn’t prejudicial. Under Strickland’s second
prong, Terrell's ineffective-assistance-of-counsel claim fails. So he’s
entitled to no Rule 37 relief.

-page 9 of 10 pages-

APPENDIX 26

i.

1

* * *

Christopher Terrell’s Rule 37 Petition (filed 24 February 2020) is
denied. And Christopher Terrell's Motion for Appointment of Counsel in
Rule 37 Proceeding (filed 24 February 2020) is denied.
It is so ordered.

Keith L! Chrestman, Circuit Judge
Date:
cc:

Mr. Christopher Terrell
Mr. Scott Ellington
Mr. Val P. Price

-page 10 of 10 pages-

J

APPENDIX 27

IN THE COURT OF POINSETT COUNTY, ARKANSAS
EIGHT DIVISON

Christopher Terrell
Vs.

Petitioner
Case No. 56Cr-15-21

State of Arkansas

%

Respondent
a/9

%

ho hi

i 13

/1

his

RULE 37 PETITION
Comes now, Christopher Terrell, indigent pro-se petitioner, and hereby moves this
Honorable Court for Rule 37 post-conviction relief, and in support of his petition states:
The United States Constitution and the Arkansas Constitution each guarantee the right to
counsel. U.S. Const. Amend. VI; Ark. Const. Art. 10§2. This means the right to effective
assistance of counsel.
In considering ineffectiveness of counsel under Ark. R. Crim. P. 37, the Arkansas
Supreme Court in Dumond v. State, 294 Ark. 379, 743 S.W. 2d 779 (1988), adopted the twoprong test set forth in Strickland v. Washington, 466 U.S. 668 (1984). First, there must be a
showing that counsel made errors so serious that counsel was not functioning as the counsel
guaranteed by the Sixth Amendment, and second, there must be showing that the defendant was
prejudiced by the errors. Id.
When trial counsel’s performance is so deficient as to deny the defendant a fair trial, both
prongs of Strickland are met. Flores v. State, 350 Ark. 198 (2002). All that is necessary is a
reasonable probability of prejudice as to the sentences if not the finding of guilt. Lasiter v.
State, 290 Ark. 96, 100, 717 S.W. 2d 198, 200 (1986).

APPENDIX 28

h/s

Point 1: Failure to move for Suppression of Physical Evidenced based on Initially Illegal
Entry in Terrell’s Residence.
Trial counsel was ineffective by failing to file and litigate a motion to suppress all of the
physical evidence found inside the residence where Terrell was arrested. Had trial counsel done
so, all physical evidence would have been suppressed. Trial counsel was successful in achieving
suppression of Terrell’s statement based on law enforcement illegally arresting him at the
residence at issue. On March 30,2018, trial court suppressed Terrell’s statement in its entirety,
ruling that law enforcements seizure of Terrell at his residence was inappropriate do to, the lack
of probable cause and a warrant or any exception to the warrant requirement. The same
arguments would have applied to law enforcement’s subsequent seizure of physical evidence at
the residence. On January 3, 2018, at a hearing to suppress Terrell’s statement; Detective Ron
Martin testified that he ordered officer to stay on scene and keep an eye on the house (R. 212).
The officer who stayed would not let Keith Terrell, Terrell’s brother, enter back into the home,
nor allow him access to his own vehicle. Keith Terrell testified in April 2016 at Terrell’s first
trial that he had to walk down the road to a neighbor’s house after being released from a set of
handcuffs.
The Arkansas Court of Appeals in Robbins v. State, 94 Ark. App. 393,231 S.W. 3d 79,
reversed the trial court’s denial of a motion to suppress evidence. In Robbins, officers forced the
occupants to leave the residence while officers remained at the residence to secure the premises
until a search warrant was obtained. The court ruled a seizure occurred and that the illegality
continued even after occupants were required to vacate their premises and did not end until
execution of the search warrant some five hours later. The court stated: “Therefore, we think it’s
clear that although no evidence was seized during the initial illegal seizure; the subsequent

APPENDIX 29

findings of evidence was the result of the exploitation of the initial illegal seizure. Under these
circumstances the fruits of the illegal seizure were poisoned by the officer’s unlawful warrantless
entry.” Robbins v. State, 231 S.W. 3d 79, at 5. The same result is warranted in Terrell’s case as
his residence was illegally seized approximately nine hours until execution of a search warrant.
This is a greater exploitation of the illegal seizure. Trial counsel was deficient by seeking and
achieving suppression of Terrell’s illegally obtained statement; yet inexplicably failing to raise
the same argument to seek suppression of the illegally obtained physical evidence gleaned from
the very same illegal seizure. There can be no sound legal, factual basis or any strategic reason
for this failure.
On January 17,2017, upon learning from Terrell of his grievance to the Arkansas
Supreme Court’s Board of Professional Conduct, the trial court held a private hearing. The trial
court agreed with Terrell that Ben Bristow, Terrell’s appointed counsel, was prejudicing of
Terrell’s defense by not filing and litigating a motion to suppress Terrell’s custodial statement
due to the circumstances surrounding Terrell’s arrest. Trial court then permitted Terrell to relieve
appointed counsel due to this prejudicial error. (See record in 56 CR-15-21, January 17, 2017).
The Supreme Court of the United States observed in Crane v. Kentucky, “The Constitution
guarantees criminal defendant a meaningful opportunity to present a complete defense” 476
U.S.683,690 (1986). The error of not filing and litigating a motion to suppress the illegally
obtained physical evidence is unquestionably an incomplete defense. Also, based upon trial
court’s prior ruling in the case, this decision could not have been the result of reasonable
professional judgement. This error was highly prejudicial because without such physical
evidence, the only evidence of Terrell’s guilt would have been the flawed and ever-changing
testimony of Betty Grant, which the jury evidently gave no credence to, As it is clear from juror

APPENDIX 30

Nicole Elsey’s affidavit and the statement made to Terrell’s trial counsel outside the courthouse
following his conviction by Juror Robinson, that the jury convicted Terrell as an accomplice of
Grant. There is a reasonable probability that the consideration of the illegally obtained evidence
from Terrell’s residence by the jury was the basis for doing so. There is also a reasonable
probability that Terrell would not have been convicted but for trial counsel’s failure to seek
suppression of the illegally obtained physical evidence Accordingly, a verdict only weakly
supported by the record is more likely to have been affected by errors than one with
overwhelming record support. Strickland, Supra.
Point 2: Failure to Timely Appeal Deemed-Denial of Motion for New Trial Based on
Extraneous Prejudicial Influence on Jurors.
Trial counsel and appellant counsel were deficient by failing to timely appeal the deemed
denial of Terrell’s motion for new trial. This prejudiced Terrell’s case as the issue would have
been meritorious on direct appeal. In raising an ineffectiveness claim against appellant counsel, a
petitioner must show there could have been a specific issue raised on appeal that would have
resulted in the appellant’s court declaring reversible error. See State v. Rainer, 2014 Ark.306,
440 S.W. 3d 31. The petitioner must show the issue was raised at trial, that the trial court erred in
its ruling on the issues, and that an argument concerning the issue could have been raised on
appeal to merit appellant relief. Walton v. State, 2013 Ark. 254 (per curiam). The Arkansas
Court of Appeals refused “to reach the merits of this argument because Terrell failed to timely
appeal the denial.” Terrell v. State, 2019 Ark. App. 433, at 11. Trial counsel failed to file an
amended notice of appeal within 30 days of the deemed denial of Terrell’s motion for a new trial,
this precluding direct review. This error was prejudicial because Terrell’s argument would have
been meritorious on direct appeal.

APPENDIX 31

Following Terrell’s conviction at jury trial, Terrell filed a motion for new trial alleging
juror misconduct (Add. 12-15; R. 183-86). Terrell alleged that Juror Robinson informed defense
counsel immediately after trial that the jury had convicted Terrell as an accomplice rather than a
principle despite Terrell not being charged under an accomplice theory of liability (Add 12-14;
R. 183-85). Terrell subsequently filed an affidavit executed by juror Nicole Elsey stating that
“the jury was unable to determine who specifically shot and killed James Hunt, but that
Christopher Terrell was convicted because he was found to have been involved in the
commission of the crime” (Add 37; R. 1225). At the hearing on the motion for new trial, the trial
court denied Terrell’s motion for new trial, ruling that the information provided in Elsey’s
affidavit did not constitute the type of extraneous prejudicial information that Rule 606
contemplates (Ab. 168-69; R. 1240). The trail court also denied defense counsel’s request to
proffer the testimony of several jurors who were subpoenaed to the hearing (Ab. 168; R. 1240).
Rule 606 (b) states: Upon an inquiry into the validity of a verdict or indictment, a juror may not
testify as to any matter or statement occurring during the course of the jury’s deliberations or to
the effect of anything upon his or any other juror’s mind or emotions as influencing him to assent
to or dissent from the verdict or indictment or concerning his mental process in connection
therewith, nor may his affidavit or evidence of any statement by him concerning a matter about
which he would be precluded from testifying be received, but a juror may testify on the questions
whether extraneous prejudicial information was improperly brought to the juror’s attention or
whether any outside influence was improperly brought to bear upon any juror.
Rule 606 (b)’s, “extraneous prejudicial information” exception encompasses assertions
derived from an external source, rather than bare, speculative assertions derived from a juror’s
personal experiences. See Blake v. Shellstrom, 2012 Ark. 428 at 10, 424 S.W. 3d 830 and 836.

APPENDIX 32

A juror dissemination their prior knowledge of the specific facts of a case to other jurors
constitutes “extraneous prejudicial information.” See Witherspoon v. State, 322 Ark. 376, 909
S.W. 2d0314 (1995). However, jurors making disparaging remarks about one of the party’s
attorneys do not. See Watkins v. Taylor Seed Farms, Inc., 295 Ark. 291, 748 S.W. 2d 143
(1988). In construing the virtually identical Fed. R. Ev. 606, the Eighth Circuit defines
“extraneous prejudicial information” to “include publicity received and discussed in the jury
room, matters considered by the jury but not admitted into evidence, and communications or
other contact between jurors and outside persons.” Hiser v.XTO Energy, Inc., 768 F.3d 773
(2014). Here, the matter considered by the jury which was not admitted into evidence was the
accomplice theory of liability.
The trial court manifestly abused its discretion by finding that the jury’s possible
consideration of an uninstructed legal theory did not constitute “extraneous prejudicial
information” pursuant to Rule 606 (b) and by denying Terrell’s motion for new trial accordingly.
Arkansas courts have not determined whether introduction of n uninstructed legal theory
constitutes such “extraneous prejudicial information.” However, existing case law makes clear
that this is precisely the type of outside information that falls squarely into Rule 606 (b)’s
narrow exception.
Here the jury was explicitly instructed not to consider outside legal theories other than
those instructed by the trial court. The trial court instructed the jury using AMCI 2d 101 (b),
specifically instructed them “not to consider any rule of law with which they may be familiar,
unless it is included in the Court’s instructions” (Ab. 159; R. 1133). That same model instruction
also instructed jurors not to “do any research on the internet or... any investigation about the
case or the parties on your own” AMCI 2d 101 (c). Jurors violating this portion of this

APPENDIX 33

instruction by doing their own research or investigation into the case or parties would
unquestionably constitute “extraneous prejudicial information” for which the Rule permits jurors
to be questioned. See Borden v. St. Louis S.W. Ry., 287 Ark. 316, 698 S.W. 2d 795 (affirming
decision to grant a new trial after jurors were found to have independently investigated the
accident scene during their deliberations). Similarly, the jury violating subsection (b)’s direction
not to consider outside legal theories constitutes “extraneous prejudicial information” too.
It is clear from Elsey’s affidavit that the jury blatantly disregarded this jury instruction in
considering Terrell’s liability as an accomplice rather than only as a principal as instructed. Just
as with conducting their own investigation, introducing uninstructed legal theories into the jury’s
deliberations involved the introduction of an “extraneous prejudicial influence.”
The note on use to AMCI 2d 101 states that the instruction is based on a comparable
civil instruction, which goes even further by instructing jurors not to “look for or receive any
information whatsoever about the case other than the law” as instructed by the trial court. AMI
3d 101 (a). Specifically, the instruction concludes as such: All of us are depending on you to
follow these rules so that you will fairly and justly decide the case based solely on the evidence
presented in court and the law as instructed by me, and not on any other sources of information.
Violations of these rules can have serious consequences, including a mistrial, which would be
very costly and wasteful. If you become aware of any violation of any of these rules at all, notify
court personnel. AMI 3d 101. There can be no question that a jury considering uninstructed legal
theories in its deliberations falls within the narrow exception announced in Rule 606 (b)
regarding “extraneous prejudicial influence.” That is precisely why the jury was instructed not to
do so, and precisely why the model jury instructions in both criminal and civil cases specifically
forbid jurors from doing so. The civil instruction, particularly, makes very clear that a violation

APPENDIX 34

of the court’s instructions by deciding the case based on uninstructed legal theories can lead to a
mistrial. See AMI 3d 101.
Several courts have found similar juror misconduct in considering accomplice liability in
cases where the theory was not instructed significant enough to warrant reversal and remand for
retrial. In State v. Williams, the Minnesota Court of Appeals noted: “If appellant’s conviction
rest upon an aiding-and abetting theory without regard to the proper legal standard for
accomplice liability, the fairness and integrity of the judicial proceedings are compromised” 759
N.W. 2d 438,446(2009).
The situation in this case correlates to that when a judge misstates the law in responding
to a jury question about its instructions. For example, Illinois courts have routinely found that a
trial court instruction a jury on an accomplice theory of liability when the state did not pursue
such theory to constitute reversible error.
People v. Morris is particularly on point. 401 N.E. 2d 284, 285 (111. App.Ct. 1980). In
Morris, the appellant was charged with residential burglary after bring arrest while trying to
drive away from the scene while in possession of the resident’s bank book. Id. At trial, a law
enforcement officer testified that Morris said he and another man had both been at the scene, that
the other man had gone to the rear of the home, and that Morris left when he could not find the
other man after a few minutes. Id. The jury was not instructed as to an accomplice theory of
liability, although the jury was instructed that it could infer Morris’s participation in the robbery
from his unexplained possession of the recently stolen item. Id. During deliberations, the jury
sent the trial judge a note with the following question: “If a person comes into possession of
property obtained illegally by another can he be presumed guilty of burglary even though he,
himself may never have illegally entered the building or removed the property?” Id. The trial

APPENDIX 35

court responded that the jury should decide the case on the instructions given, and the jury
subsequently returned a guilty verdict. Id. On appeal, the Appellate Court of Illinois reversed the
conviction based on the trial court’s failure to respond to the substance of the jury’s question. Id.
at 286. The Morris Court explained: “No instruction on accountability was given to the jury.
Consequently, in order to obtain a conviction, the state was required to show that defendant
entered the Bakshis home (People v. Echols (1978) 74 111. 2d 319, 326, 24 111. Dec. 50, 506, 385
N.E. 2d 644, 647). This showing could be by either direct proof or by the inference contained in
people’s instruction #10. The jury’s question clearly evidenced confusion concerning the
inference permitted by the possession of recently stolen property instruction and the possibility
of convicting the defendant on an accountability theory. In the court’s view, the trial courts
admonition to merely follow the instruction was insufficient as there is no assurance that
recourse to the instructions would resolve the confusion. Id. There, the jury’s consideration of an
accomplice theory of liability despite not being instructed regarding such was reversible error.
The same result is warranted in this case, where the jury convicted Terrell as an accomplice
despite not being instructed on the theory of liability.
In People v. Millsap, the Supreme Court of Illinois held that a supplemental jury
instruction on liability for aiding and abetting was inappropriate when it introduced an entirely
new theory of the case. 724 N.E. 2d 942 (2000). Millsap was charged with robbery and home
invasion, and the state did not pursue a theory of accomplice liability or request a jury instruction
regarding such. Id. at 945. The jury sent the judge a note asking, “is the accomplice just as guilty
as the offender who causes injury in a home invasion?” Id. Over objection, the trial court gave
the instruction on an accomplice liability. The Supreme Court of Illinois reversed, stating,
“because the court in this case instructed the jury on accountability after the jury had begun its

APPENDIX 36

deliberation, defendant’s attorney was entirely deprived of an opportunity to defend against that
theory.” Id. at 947; also see State v. Ransom, 785 P. 2d 469, 470 (Wash.Ct. App. 1990)
(instructing jury on accomplice liability in response to a jury question was reversible error
because “accomplice liability is a distinct theory of criminal culpability” and “the effect was to
add a theory that the State had not elected and that defense counsel had no chance to argue”)
This court should rule similarly. Just as in the cases with Morris, Millsap, and Ransom,
the introduction of an uninstructed and unargued legal theory into the jury’s deliberations is
reversible error. The only difference here is that the jury introduced the outside legal theory on
its own rather than hearing it from the trial court. The result, however, should be the same. This
is because regardless of how an uninstructed legal theory ends up in front of the jury, it is an
“extraneous prejudicial influence” that deprives the defendant of any opportunity to defend
against that theory.
While the jurors may have heard of the theory of accomplice liability based on their own
life experiences, the introduction of an outside legal theory is not the same as speculation about
likely insurance coverage or personal biases. First, it was expressly forbidden by the judge’s
instructions to the jury prior to retiring for deliberations. Second, it changed the entire nature of
the case. Defense counsel did not make any arguments arguing against an accomplice theory of
liability because Terrell was not charged as an accomplice and because the jury was not
instructed as to the theory.
When the State attempted offered a jury instruction for Murder in the first degree, that
permitted the language to be permitted to the jury to convict Terrell as an accomplice, defense
counsel made an objection and the trial court agreed that Terrell had not been charged as an
accomplice and that the accomplice language had to be stricken accordingly. (Ab. 139-40; R.

APPENDIX 37

1077-79). The trial court specifically stated, “There will not be an accomplice instruction as no
one is charged as being an accomplice, either Mr. Terrell or anyone else.” (Ab.140; R. 1079).
Terrell was prejudiced by the introduction of this extraneous legal theory into the jury’s
deliberations because his attorney was entirely deprived of an opportunity to defend that theory.
See Millsap, supra.
The trial court manifestly abused its discretion in denying Terrell the opportunity to
discern the magnitude of this “extraneous prejudicial influence” on the jury in its deliberations.
Terrell’s case must be remanded for rehearing on this issue, and he must be permitted to adduce
testimony ofjurors regarding their use of an accomplice theory of liability in determining
Terrell’s guilt under the narrow exception contained in Rule 606 (b). Trial counsel was
ineffective for failing to preserve this meritorious issue accordingly.
Point 3: Failure to move for suppression of cell site location information based on
Carpenter v. United States, which was pending at the time of Terrell’s trial.
Terrell’s trial was held on April 10-12,2018. The opinion in Carpenter’s case was issued
on June 22,2018. The Carpenter case was argued at the United State Supreme Court on
November 29,2017 and was thus pending a ruling at the time of Terrell’s hearing on January 16,
2018, concerning the CSLI information in his case and at the time of his trial. Trial counsel
should have sought a continuance to await the opinion of Carpenter. Trial counsel was
ineffective by failing to file a motion to suppress Terrell’s CSLI based on law enforcement
lacking a search warrant to obtain such records. Trial counsel’s failure to raise this issue
precluded direct review, as the Arkansas Court of Appeals noted, “because Terrell did not
challenge the seizure of his records below, this argument is not preserved for appeal.” Terrell v.
State, 2019Ark. App. 433 at 10. Trail counsel’s failure was prejudicial, as the Supreme Court of

APPENDIX 38

the United States subsequently ruled that a search warrant is required to seize such records in
Carpenter v. United States, 138 S. Ct. 2206 (2018). The Supreme Court’s opinion is binding
upon Arkansas courts and an Appellate Court applies the law in effect at the time of its decision.
Had trial counsel sought to suppress such records, the opinion would have applied to Terrell’s
case on direct review. Whiteside v. State 2013 Ark. 176, at 5,426 S.W. 3d 917, 919 (citing
Schriro v. Summerlin, 542 U.S. 348, 351 (2004). Under the express holding from Carpenter,
the process set forth by the State to attain the CSLI records of Terrell does not determine a
targets expectation of privacy, the Fourth Amendment does. The Supreme Court ruled that
accessing CSLI records constitutes a Fourth Amendment search. The acquisition of the CSLI
records without a warrant based on probable cause violated Terrell’s Fourth Amendment rights,
and such records would have been suppressed. This error was prejudicial, as the CSLI was the
State’s strongest proof against Terrell at trial. There is a reasonably probability of a different
outcome absent this evidence, which had the effect of placing Terrell at or near the scene of the
shooting right around the timeframe when it occurred.
Wherefore, the Petitioner prays that this Honorable Court grant his motion for Rule 37
post-conviction relief and for any and all just and proper relief to which he may be entitled.

Respectfully submitted,

Christopher Terrell
P.O. Box 1630
Malvern, Ar. 72104
APPENDIX 39

